APPENDIX
PETITION FOR A WRIT OF CERTIORARI
George Berka,
Petitioner,
v.
City of Middletown,
Respondent.

TABLE OF CONTENTS
Connecticut Supreme Court’s Denial of Petition for Certification
Opinion of the Connecticut Appellate Court....................................
Superior Court Docket Entries..........................................................
Judgment of the Superior Court......................................................
Blight Citation......................................................................................
Example of Other Appeal Instructions.............................................

Al
A2
A12
A13
A15
A19

1. Connecticut Supreme Court’s Denial of Petition for Certification:
SUPREME COURT
STATE OF CONNECTICUT
PSC-190387
GEORGE BERKA
v.
CITY OF MIDDLETOWN
ORDER ON PETITION FOR CERTIFICATION TO APPEAL
The plaintiffs petition for certification to appeal from the Appellate Court, 195 Conn.
App. 760 (AC 41902), is denied.

Page Al of A20

George Berka, self-represented party, in support of the petition.
Decided March 11, 2020
By the Court
Is/
Susan C. Reeve
Deputy Chief Clerk

Notice Sent: March 11, 2020
Petition Filed: February 21, 2020
Clerk, Superior Court, MMX-CV18-5010739-S
Hon. Julia L. Aurigemma
Clerk, Appellate Court
Reporter of Judicial Decisions
Staff Attorneys’ Office
Counsel of Record

2

Opinion of the Connecticut Appellate Court:

***********************************************

The “officially released” date that appears near the beginning of each opinion is the date the opinion
will be published in the Connecticut Law Journal or the date it was released as a slip opinion. The
operative date for the beginning of all time periods for filing post-opinion motions and petitions for
certification is the “officially released” date appearing in the opinion.
All opinions are subject to modification and technical correction prior to official publication in the
Connecticut Reports and Connecticut Appellate Reports. In the event of discrepancies between the
advance release version of an opinion and the latest version appearing in the Connecticut Law Journal
and subsequently in the Connecticut Reports or Connecticut Appellate Reports, the latest version is to
be considered authoritative.
The syllabus and procedural history accompanying the opinion as it appears in the Connecticut Law
Journal and bound volumes of official reports are copyrighted by the Secretary of the State, State ot
Connecticut, and may not be reproduced and distributed without the express written permission or e
Commission on Official Legal Publications, Judicial Branch, State of Connecticut.
***********************************************

Page A2 of A20

GEORGE BERKA v. CITY
(AC 41902)
GEORGE BERKA v. CITY
(AC 42138)
GEORGE BERKA v. CITY
(AC 42139)
GEORGE BERKA v. CITY
MIDDLETOWN ET AL.
(AC 42206)
Lavine, Elgo and Bear, Js.

OF MIDDLETOWN
OF MIDDLETOWN
OF MIDDLETOWN
OF

Syllabus
The plaintiff filed four separate appeals against the defendant city of Middletown, challenging, inter alia,
the issuance of blight orders against certain of the plaintiffs real property, and the rejection of his
application for a special exception to operate a sober house at the same property. The trial court granted
the defendant’s motions to dismiss the four complaints for lack of subject matter jurisdiction, from which
the plaintiff filed separate appeals to this court.
Held
1. In the appeal in Docket No. AC 41902, the plaintiff could not prevail on his claim that the city’s blight
ordinance violated, inter alia, his due process rights, as the trial court did not err in dismissing the
plaintiffs appeal for lack of subject matter jurisdiction; the plaintiff had failed to exhaust his
administrative remedies when he prematurely filed the
appeal directly from the issuance of the blight citation, and prior to the defendant issuing a failure to pay
fines notice in violation of the procedure as set forth by statute (§ 7-152c), and, therefore, there was no
ruling by a hearing officer from which the plaintiff could have properly appealed to the trial court.
2. In the appeal in Docket No. AC 42138, this court lacked subject matter jurisdiction over the appeal, as
the plaintiff failed to timely seek from this court certification for review of the judgment of dismissal,
pursuant
to statute (§ 8_8 (o)); the plaintiff never received the requisite affirmative vote of two judges that would
have allowed him to appeal to this court and, accordingly, this appeal was dismissed.
3. In the appeal in Docket No. AC 42139, the trial court improperly granted the defendant’s motion to
dismiss the appeal for lack of an actual controversy with respect to the plaintiffs assertion of constitutional
claims in an individual capacity challenging the defendant’s blight ordinance; the defendant submitted
uncontroverted evidence that it had issued blight
citations and fines to the plaintiff pursuant to the challenged ordinance with respect to the plaintiffs
property, and the trial court, having failed to construe the self-represented plaintiffs complaint in the
broad and realistic manner as required by our case law', did not conduct an examination of the plaintiff s
individual constitutional claims as required and, although this court offered no view as to the merits of the
plaintiffs individual constitutional claims, the trial court could afford practical relief to the plaintiff if he
ultimately proves that some or all of the provisions of the applicable statute (§ 7-152c) establishing a
citation hearing procedure or the city’s blight ordinance violated his constitutional rights.
4. In the appeal in Docket No. AC 42206, the trial court did not err in granting the defendant’s motion to
dismiss the plaintiff s complaint, as the defendant’s withdrawal of the blight citation issued to the plaintiff
on May 27, 2016, rendered moot the claims in the action he filed on May 8, 2018! no action had been taken
against the plaintiff pursuant to the May 27, 2016 citation, and there was.no practical relief that the court
could grant the plaintiff.
Argued October 23, 2019—officially released February 11, 2020
Page A3 of A20

Procedural History
Action, in the first case, challenging, inter alia, the defendant’s issuance of a blight citation on
certain of the plaintiffs real property, and action, in the second case, challenging a certain zoning
decision made by the defendant’s planning and zoning commission, and action, in a third case,
seeking to invalidate a certain ordinance of the defendant, and action, in a fourth case,
challenging the issuance of a blight citation by the named defendant on certain of the plaintiffs
real property, brought to the Superior Court in the district of Middletown, where the trial court,
Aurigemma, /., granted the defendant’s motion to dismiss in the first case and rendered judgment
thereon, from which the plaintiff appealed; thereafter, the trial court, Domnarsks, /., granted the
defendant’s motions to dismiss in the second and third cases and rendered judgment thereon,
from which the plaintiff filed separate appeals; subsequently, the court, Domnarski, }., granted the
named defendant’s motion to dismiss in the fourth case and rendered judgment thereon, from
which the plaintiff appealed.
Judgments in Docket Nos. AC 41902 and AC 42206 affirmed; appeal in Docket No. AC 42138 dismissed;
judgment in Docket No. AC 42139 affirmed in part; reversed in part; further proceedings.
George Berka, self-represented, the appellant in each case (plaintiff).
Brig Smith, for the appellee (defendant in first, second and third cases and named defendant in
fourth case).
BEAR J These four appeals pertain to certain real property in Middletown owned by the selfrepresented plaintiff, George Berka, and rented by him to multiple individuals. Although neither
the cases nor the appeals have been officially consolidated, we write one opinion for the purpose
of judicial economy and assess the claims made in each appeal. The plaintiff appeals from four
judgments of the Superior Court granting the motions of the defendant the city of Middletown
i to dismiss the complaints in four cases for lack of subject matter jurisdiction.
In two of his appeals to this court-Docket Nos, AC 41902 and AC42206-the plaintiffs claims
relate either to a citation issued to him in 2016 for conditions on his property alleged to have
violated the Middletown blight ordinance, which citation subsequently was unilaterally
withdrawn by the defendant, or to a subsequent citation issued to him in 2018 concerning
essentially the same alleged violations.
^
In his appeal in Docket No. AC 42138, the plaintiff challenges the denial of his application for a
special exception to operate a sober house. The appeal in Docket No. AC 42139 concerns the
propriety of the court’s dismissal of the plaintiffs petition to have the blight ordinance
invalidated on constitutional and other grounds. We affirm the judgments of the court with
respect to the plaintiffs claims asserted in Docket Nos. AC 41902 and AC 42206. We dismiss
Docket No. AC 42138 for lack of subject matter jurisdiction. We affirm the court’s judgment m
Docket No. AC 42139 with respect to its dismissal of the plaintiffs petition insofar as it (1) asks
the court to amend the Middletown blight ordinance, and (2) is predicated on nonconstitutional
grounds but we reverse the judgment of the trial court with respect to its dismissal of the
plaintiffs constitutional claims asserted in an individual capacity. The following undisputed tacts
and procedural history provide context for tne plaintiffs four appeals. The
plaintiff owns real property located at 5 Maple Place in Middletown (property) and rents rooms m
the house on the property to individuals. The first appeal, Docket No. AC 41902, relates to the
plaintiffs premature appeal to the trial court from the 2018 blight notice and subsequent
citation. On January 10, 2018, the plaintiff was issued a notice of blight pursuant to chapter 120,
article 11, § 120-25A of the City of Middletown Code of Ordinances
Page A4ofA20

(ordinance), 2 which was enacted in accordance with General Statutes § 7‘152c (a). On February
14, 2018, after the plaintiff failed to remedy the alleged blighted conditions specified in the
notice, the defendant issued a blight citation to the plaintiff. The citation provided the plaintiff
fifteen days to pay the fines that had been assessed for the violations listed in the notice of blight.
The plaintiff, however, brought an action in the trial court on March 22, 2018, prior to the
issuance of a failure to pay fines notice in accordance with § 7152c and the ordinance, and prior
to any administrative hearing or assessment of fines as provided for by § 7152c and the
ordinance. The defendant filed a motion to dismiss the complaint in that action on May 24, 2018,
which was granted by the court on July 20, 2018. The court concluded that it lacked subject
matter jurisdiction over the plaintiff s claim because the plaintiff had failed to exhaust his
administrative remedies and, accordingly, his claim was not ripe for judicial review.
The second appeal to this court, Docket No. AC 42138, relates to the plaintiffs request to the
Middletown Planning and Zoning Commission (commission) for a special exception to operate a
sober house on his property. The commission denied the application without prejudice on the
basis that the property was not in compliance with a number of Middletown local health and
safety ordinances, for which the plaintiff previously had been cited in 2016. The denial of the
application was published in the Hartford Courant on February 22, 2018.
4

Forty days later, on April 3, 2018, the plaintiff appealed the denial to the trial court. The
defendant filed a motion to dismiss that appeal on June 29, 2018, which was granted by the court
on September 18, 2018, for lack of subject matter jurisdiction. The plaintiffs third appeal to this
court, Docket No. AC 42139, is from the dismissal of his petition to have the court invalidate or,
in the alternative, amend the blight ordinance. On May 8, 2018, the plaintiff filed a “petition to
overturn blight ordinance.” On June 28, 2018, the defendant filed a motion to dismiss the
plaintiffs petition, which the court granted on nonjusticiability grounds on September 18, 2018.
The fourth matter on appeal, Docket No. AC 42206, involves the defendant’s unilateral
withdrawal of the 2016 citation to the defendant. The plaintiff was issued a citation on May 27,
2016, for essentially the same underlying blight and city health code violations contained in the
subsequent January 10, 2018, blight notice to him. The plaintiff was in the process of appealing
that citation when the defendant unilaterally withdrew it on July 22, 2016. 5
The plaintiff thereafter withdrew his 2016 appeal. Almost two years later, on May 8, 2018, the
plaintiff served a complaint alleging that the defendant had attempted to deprive him of his
constitutional rights by issuing the 2016 blight citation. At oral argu-ment in the trial court, and
in his brief on appeal, he claims that the defendant’s withdrawal of the citation was evidence of
its consciousness of guilt. The defendant filed a motion to dismiss that complaint on July 2, 2018.
On October 17, 2018, the court granted the defendant’s motion to dismiss the plaintiffs
complaint for lack of subject matter jurisdiction on the basis of mootness.
We first set forth the applicable standard of review 3 when considering a trial court’s granting of
a motion to dismiss. “A motion to dismiss . . . properly attacks the jurisdiction of the court,
essentially asserting that the plaintiff cannot as a matter of law and fact state a cause of action
that should be heard by the court. ... A motion to dismiss tests, inter alia, whether, on the face of
the record, the court is without jurisdiction.
. ,
. . . [0]ur review of the trial court’s ultimate legal conclusion and resulting grant of the motion to
dismiss will be de novo. . . . Factual findings underlying the court’s decision, however, will not be
disturbed unless they are clearly erroneous. . . . The applicable standard of review for the denial
of a motion to dismiss, therefore, generally turns on whether the appellant seeks to challenge the
legal conclusions of the trial court or its factual determinations. . . . “When a . . . court decides a
jurisdictional question raised
a pretrial motion to dismiss, it must consider the allegations of
the complaint in their most favorable light. ... In this regard, a court must take the facts to be
Page A5 of A20

those alleged in the complaint, including those facts necessarily implied from the allegations,
construing them in a manner most favorable to the pleader.
The motion to dismiss . . . admits all facts which are well pleaded, invokes the existing record
and must be decided upon that alone. . . . [I]n determining whether a court has subject matter
jurisdiction, every presumption favoring jurisdiction should be indulged.”
(Citations omitted; internal quotation marks omitted.) Hayes Family Ltd. Partnership v. Glastonbury,
132, Conn. App. 218, 221-22, 31 A.3d 429 (2011). We address each appeal separately. Additional
facts will be set forth as necessary.
I
AC 41902
In Docket No. AC 41902, the plaintiff appeals from the court’s granting of the defendant’s motion
to dismiss the plaintiffs appeal for lack of subject matter jurisdiction. On appeal to this court, the
plaintiff claims that the Middletown blight ordinance, as applied to him, violates his due process
and other rights. Specifically, he claims, inter alia, that the ordinance is difficult for an ordinary
person to understand, that the appeal process is overly complicated, and that the fines imposed
for violations are oppressively high. The following facts are relevant to this appeal. The
defendant issued to the plaintiff a notice of blight on January 10, 2018, and, on February 14,
2018, the defendant issued to the plaintiff a blight citation. The defendant issued a failure to pay
fines notice to the plaintiff on March 28, 2018. Under § 120-25A of the ordinance, the plaintiff
may seek a hearing in front of a citation hearing officer within ten days of the issuance of a
failure to pay fines notice. There is no provision either in§ 7-152c or the ordinance permitting an
administrative appeal from the notice of blight or the blight citation. The plaintiff, moreover,
filed an appeal from
the issuance of the citation directly to the Superior Court on March 22, 2018—six days before the
failure to pay fines notice was issued, and before he had filed any administrative appeal. At the
time of filing his appeal to the court, the plaintiff did not have the right, pursuant either to § 7152c or the ordinance, to seek administrative review by a Middletown administrative hearing
officer. The plaintiffs first opportunity for an administrative hearing arose, pursuant to § 7-152c
and the ordinance, only after the failure to pay fines notice was issued by the defendant on
March 28, 2018. “It is a settled principle of administrative law that, if an adequate
administrative remedy exists, it must be exhausted before the Superior Court will obtain
jurisdiction to act in the matter. . . . The exhaustion doctrine reflects the legislative intent that
such issues be handled in the first instance by local administrative officials in order to provide
aggrieved persons with full and adequate administrative relief, and to give the reviewing court
the benefit of the local board’s judgment. ... It also relieves courts of the burden of prematurely
deciding questions that, entrusted to an agency, may receive a satisfactory administrative
disposition and avoid the need for judicial review.” (Citations omitted; internal quotation marks
omitted.) Simkov. Ervin, 234 Conn. 498, 503-504, 661 A.2d 1018 (1995).
In the present case, the plaintiff was required to receive a failure to pay fines notice in order for
his right to an administrative review by a hearing officer to arise. The plaintiff, however, filed his
appeal to the Superior Court prior to receiving a failure to pay fines notice. Therefore, at the time
the plaintiff appealed to the court, he did not have the right to an administrative remedy by an
appeal tc a hearing officer. No administrative hearing had occurred, and there was no ruling by a
hearing officer from which the plaintiff could appeal to the court. According^, the court did not
err in dismissing the plaintiffs appeal for lack of subject matter jurisdiction. Therefore, we affirm
the judgment of the court dismissing the plaintiffs administrative appeal in Docket No. AC
41902.
Page A6 of A20

II
AC 42138
In Docket No. AC 42138, the plaintiff appeals from the court’s granting of the defendant’s motion
to dismiss the plaintiffs zoning appeal on the basis that his appeal to the court was untimely.
Specifically, the plaintiff claims that, although the denial of his application to operate a sober
house was published in the Hartford Courant on February 22, 2018, the actual date of denial
should be recognized as being March 22, 2018, because that is the date the plaintiff actually
became aware of the denial. The plaintiff did not seek permission from this court to file the
present appeal and, accordingly, we lack subject matter jurisdiction to hear this claim.
General Statutes§ 8-8 (o) governs Superior Court and Appellate Court review of zoning
commission decisions. On September 24, 2018, the date of the plaintiffs zoning appeal to this
court, § 8-8 (o) provided^ “There shall be no right to further review [of judgments rendered
by the Superior Court] except to the Appellate Court by certification for review, on the vote of two
judges of the Appellate Court so to certify and under such other rules as the judges of the
Appellate Court establish. . . .” (Emphasis added.) It is undisputed that, in the present appeal,
the plaintiff did not timely seek from this court certification for review of the judgment of
dismissal. He, therefore, never received the requisite affirmative vote of two judges that would
have allowed him, in September or October, 2018, to appeal to this court. Accordingly, because no
such certification was granted in this case, this court lacks subject matter jurisdiction over the
appeal. 6 Therefore, we dismiss the plaintiff s appeal in Docket No. AC 42138.
Ill
AC 42139
In Docket No. AC 42139, the plaintiff appeals from the court’s granting of the defendant’s motion
to dismiss his “petition to overturn blight ordinance” on nonjusticiability grounds. We reverse the
decision of the court only with respect to the constitutional challenges alleged by the plaintiff in
that petition in his individual capacity. Before considering the merits of the plaintiffs claim, we
first review the state of the record before us and the facts contained therein. It is undisputed
that, on February 14, 2018, the defendant issued a blight citation to the plaintiff regarding the
property.
7 It also is undisputed that, on March 22, 2018, the plaintiff commenced an appeal of that blight
citation in the Superior Court for the judicial district of Middlesex. On May 8, 2018, the plaintiff
initiated an action seeking to invalidate the blight ordinance. The plaintiff commenced a third
civil action that same day, which is the subject of Docket No. AC 42206; see part IV of this
opinion! and which alleged due process violations stemming from a blight citation issued to the
plaintiff by the defendant in 2016. The record thus unequivocally indicates, and the defendant on
appeal concedes, that two related actions regarding the propriety of blight citations issued to the
plaintiff regarding his property were pending in the same courthouse at the time that his
“petition to overturn blight ordinance” was commenced. His petition admittedly was not in the
form of a complaint in accordance with the rules of practice. See Practice Book§ 10-1.8 The
plaintiffs self-styled petition sets forth general allegations regarding the defendant’s blight
ordinance without any reference to particular properties or property owners; More specifically,
the petitioner alleged that “(l) in its current form, [the blight ordinance] does not allow accused
parties to contest the charges before being fined, (2) it does not grant accused parties the right to
a speedy trial, (3) the fines are excessive relative to the minor nature of the infractions, (4) it does
not adequately safeguard the
rights of property owners, (5) it has the potential to unjustly inflict financial ruin, (6) it may be
prejudicial against property owners in certain cases, and (7) it potentially violates many
Page A7 of A20

important constitutional safeguards, such as the rights to privacy, freedom of self-expression,
security in one’s possessions, and the prohibition against the taking of one’s property without due
process of law.” In response, the defendant moved to dismiss the petition for lack of subj ect
matter jurisdiction, arguing that (l) no actual controversy existed between the parties, (2/ the
plaintiff was purporting to bring the action on behalf of all residents of the defendant
municipality, and (3) the controversy was non-justiciable, in that it properly was the prerogative
of the defendant’s legislative body to provide redress of the alleged infirmities in the blight
ordinance. Significantly, the defendant appended five exhibits to its memorandum of law in
support of that motion, including copies of the blight citation, the failure to pay fines notice and
the assessment of fines notice that the defendant issued to the plaintiff in 2018, regarding the
property. Those materials thus were properly before the court when the issue of justiciability was
raised, as the substance of those materials was not contested by the plaintiff. The plaintiff filed
an objection to the motion to dismiss, in which he argued that “he absolutely does have standing
because “[t]he determination of the controversy will result in practical relief to [him by
prohibiting the defendant] from imposing this unjust ordinance on him and his fellow property
owners in the future.” The plaintiff further averred that an actual controversy existed “between
or among the parties to the dispute [because] the people of the [defendant municipality], inclusive
of the plaintiff, are in a real danger of losing their homes without due process of law or just
compensation, in direct violation of their [fifth and fourteenth] amendment rights.”
By order dated September 18, 2018, the trial court, Domnarski, granted the motion to dismiss.,
In that order, the court concluded that (l) “Where is no actual controversy between the parties,”
and (2) the plaintiffs claims are not justiciable because “the court cannot 9 give practical relief to
the plaintiff. Any repeal or amendment of the blight ordinance must be done by municipal action,
not by the court/’ On appeal, the plaintiff challenges the propriety of both determinations.
A
We first consider the actual controversy question. In so doing, we are mindful that,. in deciding a
motion to dismiss, the “court must take the facts to be those alleged m the complaint, including
those facts necessarily implied from the allegations, construing them in a manner most favorable to the
pleader.” (Emphasis added.) Pamela B. v. Ment, 244 Conn. 296, 308, 709 A.2d 1089 (1998). [I]n
determining whether a court has subject matter jurisdiction, every presumption favoring
jurisdiction should be indulged.” (Internal quotation marks omitted.) Connecticut Energy Marketers
Assn. v. Dept, of Energy & Environmental Protection, 324 Conn. 362, 385, 152 A.3d 509 (2016).
Furthermore, it is “the established policy of the Connecticut courts to be solicitous of [self
represented] litigants and when it does not interfere with the rights of other parties to
construe the rules of practice liberally in favor of the [self-represented] party. . . . The courts
adhere to this rule to ensure that [self-represented] litigants receive a full and fair opportunity to
be heard, regardless of their lack of legal education and experience . . . . This rule of construction
has limits, however.” (Internal quotation marks omitted.) Ajadi v. Commissioner of Correction, 280
Conn. 514. 549, 911 A.2d 712 (2006). “The modern trend ... is to construe pleadings broadly and
realistically, rather than narrowly and technically.” (Internal quotation marks omitted.; Oliphant
v. Commissioner of Correction, 274 Conn. 563, 569, 877 A.2d 761 (2005). “[W]hile courts should not
construe pleadings narrowly and technically, courts also cannot contort pleadings in such a way
so as to strain the bounds of rational comprehension.” Henderson v. Commissioner of Correction, 181
Conn. App. 778, 793, 189 A.3d 135, cert, denied, 329 Conn. 911, 186 A.3d 707 12018). In the
present case, the plaintiff brought an action challenging the validity of the defendant s blight
ordinance, claiming, inter alia, that it violates certain constitutional guarantees. In moving to
dismiss that action, the defendant submitted uncontroverted evidence indicating that it had
Page A8 ofA20

issued blight citations and fines to the plaintiff pursuant to the ordinance with respect to his
property. The defendant likewise concedes, in its appellate brief before this court, that the
plaintiffs action to invalidate the blight ordinance arises “out of the same underlying
enforcement actions against his rental property at 5 Maple Place.” In light of that concession, it
is not surprising that the plaintiff, in objecting to the defendant’s motion to dismiss, represented
to the court that this action was brought because “the people of the [defendant municipality],
inclusive of the [pllaintiff are in a real danger of losing their homes without due process of law or
just compensation.” (Emphasis added.) In the proceedings in the trial court, the plaintiff, the
defendant, and the trial judge all were aware of the multiple actions pending in that court
regarding the application of the blight ordinance to the plaintiff s property. 10 The
interrelatedness of those actions, which the defendant on appeal expressly concedes, is borne out
by the pleadings in those related proceedings. Like the trial court, this court properly may take
judicial notice of the filings in those related proceedings, which unequivocally indicate that the
plaintiff was contesting the enforcement of the blight ordinance on his property. 11 See Wasson v.
Wasson, 91 Conn. App. 149, 151 n.l, 881 A.2d 356 (“[t]he Appellate Court, like the trial court, may
take judicial notice of files of the Superior Court in the same or other cases” [internal quotation
marks omitted]), cert, denied, 276 Conn. 932, 890 A.2d 574 (2005); see also Karp v. Urban
Redevelopment Commission, 162 Conn. 525, 527, 294 A.2d 633 (1972) (“[t]here is no question [of] our
power to take judicial notice of files of the Superior Court, whether the file is from the case at bar
or otherwise”); Folsom v. Zoning Board of Appeals, 160 Conn. App. 1, 3 n.3, 124 A.3d 928 (2015)
(taking “judicial notice of the plaintiffs Superior Court filings in . . . related actions filed by the
plaintiff’). Cognizant of our obligation to indulge every presumption favoring subject matter
jurisdiction, as well as to provide reasonable latitude to self-represented parties; see Maresca v.
Allen, 181 Conn. 521, 521 n.l, 436 A..2d 14 (1980); we disagree with the court’s conclusion that the
plaintiffs petition does not pertain to an actual controversy between the parties. The court
improperly granted the motion to dismiss for lack of an actual controversy.
B
We next consider the question of practical relief. In dismissing the plaintiffs action to invalidate
the blight ordinance, the court concluded that it “cannot give practical relief' to the plaintiff
[because] any repeal or amendment. . . must be done by municipal action, not by the court.” To
the extent that the plaintiff has asserted constitutional claims in an individual capacity, we
disagree with the court.“[W]hen a question of constitutionality is raised, courts must approach it
with caution, examine it with care, and sustain the legislation unless its invalidity is clear.” State
v. Long, 268 Conn. 508, 521, 847 A.2d 862,cert, denied, 543 U.S. 969, 125 S. Ct. 424, 160 L. Ed.2d
340(2004). To the extent that the self-represented plaintiff in the present case attempts to assert
constitutional violations on behalf of the citizens of Middletown generally, the plaintiff does not
have standing to do so. “The authorization to appear [as a self-represented litigant] is limited to
representing one’s own cause, and does not permit individuals to appear [as a self-represented
litigant] in a representative capacity.” Expressway Associates II v. Friendly Ice Cream Corp. of
Connecticut, 34 Conn. App. 543, 546, 642 A.2d 62, cert, denied, 230 Conn. 915, 645 A.2d 1018
(1994). Insofar as the plaintiff in his petition has asserted claims on behalf of the Middletown
citizenry generally, the court properly granted the motion to dismiss such claims. The plaintiff
nonetheless was free to assert claims in an individual capacity. ’Although not in the form required
under our rules of practice, the plaintiff provided ample notice that his petition was predicated,
in part, on constitutional grounds. Specifically, the plaintiff alleged, in relevant part, that the
blight ordinance “violates many important constitutional safeguards, such as the rights to
privacy, freedom of self-expression, security in one’s possessions, and the prohibition against the
Page A9 of A20

takinp of one’s property without due process of law.” The petitioner also expressly invoked the
first amendment in that pleading. “Standing is the legal right to set judicial machinery m motion.
One cannot rightfully invoke the jurisdiction of the court unless he [or shej has, m an individual
or representative capacity, some real interest in the cause of action, or a legal or equitable right,
title or interest in the subject matter of the controversy.” Gladstein v. Goldfield, 325 Conn. 418, 4
n 3 159 A.3d 661 (2017). Construing the plaintiffs petition in accordance with the broad and
realistic framework through which Connecticut courts are instructed to consider the pleadings of
self-represented litigants, we conclude that it contains allegations of a constitutional dimension.
It does not “strain the bounds of rational comprehension”; Henderson v. Commissioner of Correction,
supra, 181 Conn. App. 793; to acknowledge that at least some of the plaintiffs constitutional
allegations are intended to directly apply to him. As a result , we disagree with the court’s
conclusion that it could not afford any practical relief to the plaintiff. It is well established that
both this court and the trial court have the jurisdiction to overturn state and municipal
legislation and ordinances that violate federal and state constitutional protections. 12 Because the
defendant filed a motion to dismiss the plaintiffs petition, the structure of the petition as a
complaint was not challenged by the defendant. With our reversal of the court’s judgment of
dismissal insofar as it relates to the plaintiffs allegations of violations of his individual
constitutional rights, those allegations in the petition, on remand, are before the court. The court
could afford practical relief to him if the plaintiff ultimately proves that some or all of the
provisions of § 7‘152c or the blight ordinance violated his constitutional rights. In summary, on
the basis of our thorough review of the record and relevant case law, we conclude that the court
failed to construe the self-represented plaintiffs petition in the broad and realistic manner
required bv our case law and, as a result, it did not conduct the examination of the plaintiffs
individual constitutional claims that our case law further requires. Accordingly, we reverse the
judgment of the court granting the defendant’s motion to dismiss the plaintiffs petition m Docke
No. AC 42139 with respect to the plaintiffs individual constitutional claims. In so doing, we.otier
no view whatsoever as to the merits of those claims.
IV
AC 42206
„ ,
,
.,
In Docket No. AC 42206, the plaintiff appeals from the judgment of the court granting the
defendant’s motion to dismiss his complaint filed on May 8, 2018, which challenged a blight
citation issued by the defendant on May 27, 2016, on the ground of mootness. The defendant ^
moved to dismiss the plaintiffs complaint on July 2, 2018, on the basis that the defendant had
withdrawn that blight citation on July 22, 2016, and that no action had been taken against the
plaintiff pursuant to that citation, rendering the plaintiffs appeal moot because there was no
practical relief that the court could grant. On October 17, 2018, the court granted the defendant s
motion to dismiss on the basis that the withdrawal of the citation mooted the plaintiff s claims,
and, therefore, the court lacked subject matter jurisdiction over the appeal. We agree with the
court. “Mootness is a question of justiciability that must be determined as a threshold matter
because it implicates this court’s subject matter jurisdiction....... An actual controversy must exis
not only at the time the appeal is taken, but also throughout the pendency of the appeal. ...
When, during the pendency of an appeal, events have occurred that preclude an appellate cour „
from granting any practical relief through its disposition of the merits, a case has become moot.
(Citations omitted; internal quotation marks omitted.) Renaissance Management Co. v. Barnes, 175
Conn App 681 685-86, 168 A.3d 530 (2017). Because the defendant’s withdrawal of the blight
citation issued to the plaintiff on May 27, 2016, rendered moot the claims m the complaint he
filed on May 8, 2018, with respect to the citation, we conclude that the court did not err m
Page A10 of A20

granting the defendant’s motion to dismiss the plaintiffs complaint. The judgments in Docket
Nos. AC 41902 and AC 42206 are affirmed; the appeal in Docket No. AC 42138 is dismissed for
lack of jurisdiction; the judgment in Docket No. AC 42139 is reversed in part and the case is
remanded to the trial court for further proceedings 13 consistent with this opinion. In this opinion
the other judges concurred.
l
Linda S.K. Reed was also named as a defendant in the action that is the subject of the appeal in Docket No. AC 42206.
She is not a party to that appeal and all references herein to the defendant are to the city of Middletown.
2

The City of Middletown Code of Ordinances, Chapter 120, Article II,§ 12025Aprovides the city’s procedure for issuing
and appealing blight citations.
3
The defendant issued to the plaintiff a failure to pay fines notice on March 28, 2018, six days after the plaintiff
initiated the action challenging such fines. Section 7_152c provides that, following the issuance of a failure to pay fines
notice, the party to whom the notice has been issued has ten days to appeal to an administrative hearing officer. The
plaintiff timely sought an administrative appeal. A hearing officer was assigned, and a hearing was held on May 2,
2018. After the hearing, the hearing officer issued a decision sustaining the city’s blight citation and denying the
plaintiffs claims. The plaintiff appealed this decision two days later on May 4, 2018, initiating an action currently
pending in the trial court. On May 7, 2018, the hearing officer issued an amended hearing decision, again denying the
plaintiff s claims.
4
The publication states in relevant part: “Notice of decision by the Middletown Planning and Zoning Commission at its
regular meeting of February 14, 2018: 1. Denied without prejudice a proposed [sjpecial [exception to Section 60.02.24
under the Americans with Disabilities Act to operate a recovery home (sober house) at 5 Maple Place, Applicant/agent
George Berka SE 2017-7.” Additionally, during oral argument on the appeals, the defendant’s counsel was questioned
about whether the defendant also had sent to the plaintiff by certified mail individual notice of its decision. See
General Statutes § 826e. The attorney for the defendant was unable to answer that question at oral argument, but he
subsequently sent to this court, with a copy to the plaintiff, who did not object to the submission, a copy of the certified
mail notice to the defendant at his home address in Waterbury. If it is necessary to do so, we take judicial notice of the
certified mail to the plaintiff. See Gamez-Reyesv. Biagi, 136 Conn. App. 258, 261 n.4, 44 A.3d 197, cert, denied, 306
Conn. 905, 52 A.3d 731 (2012).
5
In its brief and at oral argument in Docket No. AC 42206, the defendant explained that, at the same time it had issued
the blight citation to the plaintiff, the state’s attorney’s office had brought a case against the plaintiff for the same
violations set forth in its blight citation. The defendant stated that it withdrew the 2016 blight citation because of the
duplicative nature of the claims against the plaintiff set forth in the blight citation and the claims against him being
pursued by the state’s attorney.
6
We also note that, even if this appeal properly were before this court, the plaintiff filed his appeal in the trial court on
April 3, 2018—forty days after the decision of the commission was published. General Statutes § 88 (b) states in
relevant part: “[A]ny person aggrieved by any decision of a board, including ... a special permit or special exception
pursuant to
section 8-3c, may take an appeal to the superior court for the judicial district in which the municipality is located. . . .
The appeal shall be commenced by service of process . . . within fifteen days from the date that notice of the decision
was published as required by the general statutes." The plaintiffs appeal was not filed within fifteen days of the date
of publication and, therefore, the trial court lacked subject matter jurisdiction over the claim. See, e.g., Bridgeport
BowIO-Rama, Inc. v. Zoning Board ofAppeals, 195 Conn. 276, 283, 487 A.2d 559 (1985) (holding that court properly
dismissed
plaintiffs appeal when plaintiff failed to bring its appeal of zoning board of appeals decision within fifteen days after
publication of adequate notice of decision as required by§ 8-8). The plaintiff did not challenge the adequacy of the
published notice. See, e:g., id., 281-82.
7
'
Copies of that blight citation, as well as the failure to pay fines notice and the assessment of fines notice issued by the
defendant, all accompanied the defendant’s motion to dismiss and, thus, properly were before the court when the issue
of justiciability was raised.
8

Page All of A20

divided into paragraphs numbered consecutively, each containing as nearly as may be a separate allega

....

466al563 A.2d 1358 (1989). Here, the materials furnished to the court by the defendant are not disputed and
plaintiff has been subject to actions to enforce the blight ordinance against his property.
The record indicates that Judge Domnarski ruled on the present action concerning the validity of the blight ordinance
and the nlaintiffs appeal from the denial of his application for a special exception to operate a sobe* ho"®®
th®
property on September 18, 2018; on October 17, 2018, he dismissed the plaintiffs action regarding the
blight
citation.
“out of the same underlying
actions mod agoins. the
JT
2018
L station t0 take judicial n°tlCe °f th°Se relat6d Pr0CeedingS’lf n0t a
lal ad“isslf0£ Se6’
e f idia v. Tesco Corp., 11 Conn. App. 391, 395, 527 A.2d 721 (1987) (“Me view this statement by the plaintiffs m
their [appellate] brief as analogous to a judicial admission and therefore binding on the plain
arises

This court mav exercise concurrent jurisdiction with the federal courts in cases arising under *e federal constitution.
See e e Stratfordv Bridgeport 173 Conn. 303, 311, 377 A.2d 327 (1977) (“Although it is true that where the
supremacy tfSral law exists it requires that state courts apply that law, the mere fact of such supremacy does not
oust a state court from jurisdiction”).
We likewise reiterate the procedural posture of this case, which is a dismissal on jurisdictional grounds. The question
further^nTte^that Practice^oolf^lO-Oo'laHl^provides in relevant'par^ttiat^Sx^'ept M^<rovidedIin^ertiOT^10-66,^ed
fntlm^rwie^ng section ^^[bly^der °/juidar authority6 rSC” WhetheTto permit'the plai^iff toarnend^hls^ileading
pursuant to that rule of practice “rests within the discretion of the trial court.” Martmezv. New Haven,
15 n.13, 176 A.3d 531 (2018).

3. Superior Court Docket Entries 'iliflbtions/Headings /Documents I Case Status
Entry

MS

04/05/2018
06/12/2018
100.30 03/22/2018

100.31

03/22/2018

Arguable

Description

File Date

O APPEARANCE
Appearance

administrative document
PPOCFFDINGS FOR ENFORCEMENT OF MUNICIPAL
REGULATIONS AND ORDINANCES CGS 7-152b/7-1S2c
(JD-CV-201
P MUNICIPAL NOTICE OF ASSESSMENT CGS 7-1S2b
and 7-152c
RESULT: Order 3/26/2018 BY THE COURT

p

No

Ho

No

100.32 03/26/2018

C ORDER
Order forHearing
RESULT: Order 3/26/2018 BY THE COURT
■
Last Updated: Additional Description - 03/26/2018

101.00

03/22/2018

P

RETURN OF SERVICE

No

102.00 04/05/2018

D

MOTION FOR CONTINUANCE
RESULT Granted 4/6/2018 HON W PIERSON

No

102.10 04/06/2018

C

ORDER
RESULT: Granted 4/6/2018 HON W PIERSON

103.00

05/02/2018

D

CASEFLOW REQUEST |JD-CV-11Si
RESULT Granted 5/3/2018 HON W PIERSON

103.10 05/03/2018

C

ORDER
RESULT: Granted 5/3/2018 HON W PIERSON

Page A12 of A20

No
No
No

Conn. ,

104.00

05/24/2018

D

MOTION TO DISMISS PB 10-30
RESULT: Granted 7/20/2018 HON JULIA AURIGEMMA

Yes

104.10

07/09/2018

C

ORDER
RESULT: Granted 7/9/2018 HON JULIA AURIGEMMA

No

105.00

05/24/2018.

D

MEMORANDUM IN SUPPORT OF MOTION
Memorandum of Law in Support of Motion to Dismiss

No

106,00

05/25/2018

P

OBJECTION TO MOTION

107.00

06/12/2018

p

REQUEST FOR ARGUMENT -NON-ARG MATTER IJDCV-128)
RESULT. Order 6/19/2018 HON EDWARD DOMNARSKI

No
No

107.10

06/19/2018

C

ORDER
RESULT: Order 6/19/2018 HON EDWARD DOMNARSKI

No

108.00

07/20/2018

C

MEMORANDUM OF DECISION
RESULT: Order 7/20/2018 HON JULIA AURIGEMMA

No

109.00

07/20/2018

C

JUDGMENT OF DISMISSAL
RESULT: HON JULIA AURIGEMMA

No

110.00

07/24/2018

P

APPEAL TO APPELLATE COURT

No

111.00

01/31/2019

P

PROPOSED JUDGMENT FILE

No

112.00

02/01/2019

C

JUDGMENT FILE

No

113.00

02/11/2020

C

APPELLATE COURT DECISION JUDGMENT/ORDER
OF TRIAL COURT AFFIRMED
RESULT: BY THE COURT

No

114.00

02/21/2020

P

PETITION FOR CERTIFICATION

1.

No

4. Judgment of the Superior Court :

i

STATE OF CONNECTICUT
MMX-CV18-5010739-S

SUPERIOR COURT

GEORGE BERKA
57 Concord Street
Waterbuiy, CT 06710

JUDICIAL DISTRICT
OF MIDDLESEX
AT MIDDLETOWN /

V,
'4

CITY OF MIDDLETOWN
245 DeKoven Drive
Middletown, CT 06457

•

JULY 20, 2018

Present: Hon, Julia Aurigemma, Judge
JUDGMENT

Page A13 of A20

This action, by writ and complaint, in the nature of an appeal from a blight citation,
dated February 14, 2018, and issued by the Middletown Department of Planning,
Conservation, and Development, came to this Court on March 22, 2018 with a Return
Date of April 24, 2018 and thence on April 5, 2018 when the defendant appeared, and
thence on May 24, 2018 when the defendant filed a Motion to Dismiss, and thence on
May 25,2018 when plaintiff filed an Objection to the Motion to Dismiss,
The Court, having heard the parties on July 9, 2018, granted the defendants Motion
to Dismiss and judgment of dismissal entered on July 20, 2018.
Whereupon, it is adjudged that a judgment of dismissal enter in favor of the
defendant and the action is dismissed.
By the Court,
Debora Kaszuba-Neary
Chief Clerk

Page A14 of A20

5. Blight Citation

City of Middletown
Department of Planning, Conservation & Development
245 dcKovcn Drive
Middletown. CT 0645?
860-638-4840
wivw.mlddlelownoUmmne.com

BLIGHT CITATION
CERTIFIED MAIL RETURN RECEIPT REQUESTED: 7017 1070 0000 7743 2754
George Berka, Jr.
305 W. 6"’ Street
Wilmington, DE 19801
CERTIFIED MAIL RETURN RECEIPT REQUESTED: 7017 1070 0000 7743 2761
New Alliance Bank
195 Church St.
New Haven. CT 06510
CERTIFIED MAIL RETURN RECEIPT REQUESTED: 7017 1070 0000 7743 2723
George Berka. Jr.
57 Concord St.
Waterbury, CT
06710
VIA ELECTRONIC MAIL: gberka57@comc0st.net

February 14, 2018

PROPERTY LOCATION:

5 Maple Place, Middletown, CT
Map,Lot: 34/0133
Zone: RPZ

PROPERTY OWNER:
OWNER MAILING ADDRESS:

George Berka, Jr.
305 W. 6th Street, Wilmington, DE 1.9801 &
57 Concord St., Waterbury. CT 06710

Page A15 of A20

,

The Citv of Middletown's Zoning Enforcement Officer issued a Notice of Blight dated Jammiy lO,
for violations of Chapter 120. Article 11. § .120-20 and §120-25 of the City of Middletown s Code
of Ordinances (referred to herein as the “Code‘j which existed on the above noted property located at
5 Maple Place! Middletown, Connecticut. The Notice of Blight provided that such violations were
required to be remediated by Friday, February % 2018.

the. Middletown Code of Ordinances, as amended .
February 14, 2018
rage. 2

YOtJ ARF HEREBY SERVED WITH A CITATION OF $700 FOR VIOLATIONS OF THE

otyISdmetown’S code of ordinances on the property, toe cited
FINES MOST BE PAID AND THE VIOLATIONS ON THE PROPER IV MUST BE
REMEDIATED NO LATER THAN MarchJLlMSYou have fifteen (15) days from the date of this notice, until ThursdayitMarch L20||. to pay the
fmes in full on an unconlested basis and to remediate the violations on the Property, tf any via aliens
on the Property are ongoing, maintained or are re-established, the failure to remediate such violations
by such date may result in the imposition of additional lines.
THE SPECIFIC NATURE OF THE VIOLATION^) CITED IS/AR.E DESCRIBED AS
FOLLOWS:
□ It is determined by the. City that existing conditions pose a serious or immediate danger to
the health, safety or welfare of any person or the community. (§!20-20A (1))
m Missing, broken or boarded windows or doors, if the building is not vacant or
abandoned (§120-20A (2)(a))
REMEDY: Remove the boards used to cover the basement windows and
replaee/insta 11/repair the windows.
Broken glass, crumbling stone or brick or other conditions reflective of deterioration
or inadequate maintenance (§I20-20A (2)(b)) ..
REMEDY: Repair all crumbling brick and stone and other conditions reflective of
deterioration or inadequate maintenance.
□ A fence that i s in a state of di lapidation or decay: (§! 20-20A (2)(c))

m

B A collapsing or missing exterior wall, roof, floor, stairs, porch,
hatchways, chimneys, gutters, awnings or olher exterior features (&12U-2UA <2)<d))
REMEDY: Repair the unstable front porch and rear exterior stairs and associated
railings, repair any/ali missing/damaged gutters, repair chimney and other extc? toi
features in need of repair.

Page A16 of A20

IS Siding or roofing that is seriously damaged, missing, fatted or peeling (§120-204 (2)(e))
REMEDY: Repair damaged siding and roofing.
□ Unrepaired fire or water damage that has existed for longer than two months (§120-2GA
(2X0)
O A foundation that, is structurally faulty (§120-2QA (2)(g))
j§3 The outside structure walls are not weather- and water-tight that is evidenced by
such structure having any holes, loose boards, or any broken, cracked or damaged
siding that admits rain, cold air, dampness, rodents, insects or vermin (§120-20A
(2)00)
REMEDY: Seal, patch or otherwise secure all holes, loose boards, or any broken,
cracked or damaged siding that admits rain, cold air, dampness, rodents, insects or
vermin.
February 14.2018
Page 3

13 Garbage, rubbish, refuse, accumulating refuse, putrcsciblc items, trash or other
accumulated debris that is being stored or accumulated in the public view (§120-20A
(2)(i))

REMEDY: Remove all accumulated debris including but not limited to the pallets,
and discarded household items.
□ Parking lots in a state of disrepair or abandonment evidenced, for example, by cracks,
potholes, overgrowth of vegetation within the surface pavement or macadam, or within
medians and buffers (§120-20A (2)(j))
□ Shrubs, hedges, grass, plants, weeds or any other vegetation that have been left to grow in
an unkempt manner that are covering or blockin g means of egress or access to any
building or that are blocking, interfering with,'or otherwise obstructing any sight line, road
sign, or emergency access to or at the property, when viewed from any property line (§12020A (2)(k))
0 Abandoned or inoperable vehicles or abandoned or inoperable property are
improperly stored on the premises; (§120-20A (2)(1))
REMEDY; Removal or repair of the inoperable trailer lying beneath a fallen tree
fro ra tli e pro perty.
□ Abandoned or vacant buildings or structures that are devoid of water, sewer or other utility
function or sendee that has become an illegal residence (§120-20A (2)(m))
□ Grass or weeds that have readied a height greater than eight inches (§120-2GA (2)(nj)
□ Graffiti on buildings or structures. (§ 120-20A (2)(o))
□ Vacant or abandoned buildings must be boarded up as required-by the Building. Code. In ■
addition, for any building that is vacant for more than two months, the plywood used to
board up the openings must be painted in a color to match the building. (§120-20A (3))
□ ffhe properly is a fire hazard as documented by the Fire Department. (§120-20A (4))
Page A17 of A20

v- 4-

D The property provides rodent harborage or infestations, as documented by the Health
Department. (§120-20 A (5))
. . , . ,
,
n All equipment or other materials stored on the property must be free from rust and in good
working order. Abandoned appliances, automobile parts, discarded household items and
piles of rotten lumber are prohibited from being stored on the property. Bquipmetf and
material stored outside shall be stacked or arranged in an orderly fashion m a location
providing reasonable screening from neighbors and adjoining streets. (§U0-*,0A (6),
PwSuoCTi^ei 12(1, Article II, Seclicu 120-25(0(2) of the M iddle,own Co* of Ordinances, if

TuJtalS 7-IS&, »
authorized to obtain a judgment against you m the Superior Court and to place a hen against vo
property in the amount of such judgment.
CRIMINAL VIOLATION
February 14.2018
Page 4

Pursuant to Connecticut General Statutes § 7-148(c)(7)(H)(xv) and § 7-1480, as amended, any person
or entity who. after written notice and a reasonable opportunity to fully remediate the blighted premises
within the time period prescribed in the Notice of Blight willfully continues to violate the provisions
of Chapter 120.. Article 0. of the Middletown Code of Ordinances, may,, pursuant to Section § 12025(C)(1) of the City of Middletown’s Blight Ordinance, be lined by the State of Connecticut not more
than TWO HUNDRED FIFTY DOLLARS (S250.00) FOR EACH DAY for which it can be shown,
based.on air actual inspection, of the blighted premises on each such day, the blighted conditions
continued to exist after written notice to the owner or occupant. This section is designated as a violation
pursuant to Connecticut General Statutes § 53 a-27.
ABATEMENT OF VIOLATION(S)
„
.
Pursuant to C.G.S. § 7-148(c)(7)(H)(xv), as amended, and Chapter 120, Article TL *§1*0-25(1)) and
120-26 of the Middletown Code of Ordinances, the Ci ty may enter the blighted premises to remediate
the blighted conditions, and that in such cases, the City shall assess the costs incurred by the City ot
Middletown for such remediation upon the owner, or occupant of the blighted premises as a hen, or as
taxes pursuant to C-.G.S § 49-73b and C.G.S. § 12-169b, as amended.
. ,
.*
If you have any questions please feel free to contact me fay email at mkheito^ri@middletownct.goy
or fay phone at 860-638-4837.
Sincerely,

T

Michelle T. Ford, CWB®, PWS, CESSWi
Acting Zoning &• Wetlands' Enforcement Officer
City ofMiddletown

Page A18 of A20

6. Example of Other Appeal Instructions

Connecticut Genera] Statutes Section lSa-229 states "(a) Any person aggrieved
RIGHT OF APPEAL:
by an order issued by a town, city or borough director of health may appeal to the commissioner of
public health not later than three business days after the date of such person's receipt of such order,
who shall thereupon immediately notify the authority from whose order the appeal was taken, and
examine into the merits of such case, and may vacate, modify, or affirm such order."
There are two ways to appeal this order; both methods require action not later than three business days
after you receive the order

(1)

You may appeal the order by delivering your written appeal to the Department not later
than three business days after you receive the order. You may deliver it to the Department
either in person or by facsimile. The Department's address and facsimile number are:
Department of Publit Health
Public Health Hearing Office
410 Capitol Avenue, MS 13 PHO
PO Box 340308
Hartford, CT 06134-0308
Fax {860) 509-7553

If you choose this method of appeal, you need do nothing more to perfect your appeal, unless
instructed otherwise by the Department.
(2)

You may also appeal the order by calling the Department not later than three business daysafter receipt of the order at the following numbers: {860) 509-7648 or (888) 891-9177, It is
sufficient to leave a message with your name, number and description of the order you are
appealing.
If you appeal the order by calling one of the telephone numbers listed above, the telephone
call must be followed up with a written notice of appeal that must be received by the
Department within ten days of the telephone notice.
PLEASENOTE: It is not sufficient that written notification be postmarked within ten days, it
must be received by the Department within ten days. Delays caused by the post Office will
not excuse failure to comply with this requirement
The written notice of appeal following the telephone notice may be delivered to the
Department, in person, by facsimile, or by first class or certified mail. The Department's
address and facsimile number are provided above. If you choose to send the written notice
of appeal by first class mail or certified mail, please use the address provided below:
Department of Public Health
Public Health Hearing Office
410 Capitol Avenue, MS 13 PHO
PO Box 340308
Hartford, CT 06134-0308

Page A19 of A20

•The Regulations of Connecticut state Agencies provides:
Sec lSa-9-8.
Date due when due date falls on a date the department is closed, If the last day of any
statutory or regulatory time frame falls on a day on which the department Is dosed, any paper maybe
filed or any required action may be taken on the next business day the department is open, Such filing
or action shall be deemed to have the same legal effect as if done prior to the expiration of the time
frame,
Sec. 19a-9-14.

(a)
(b)

Appeals of orders issued by a town, city, borough, or district director of health.

Any person aggrieved by an order issued by a focal director of health may appeal said order to
the commissioner,
The notice of appeal shall be filed with the commissioner within forty-eight (48) hours after the
receipt of said order.

(c)

The notice of appeal shall state:
(i)
(2)
(3)

M)
(C)

(f)

the name, address, and telephone number of the person claiming to be aggrieved;
the name of the issuing authority;
the way in which the order adversely affects the person claiming to be aggt ieved,

(4)
the order being appealed; and
(5)
' the grounds for appeal.
,
u
,
Telephonic notice of appeal to the office of the commissioner shall be satisfactory as the initial
notice of appeal, provided written notice of appeal from the person claiming to be aggrieved is
received by the department within ten (10) days of the telephonic notice.
An appeal from an order issued by a town, city or borough, or district director of health shall be
a denovo proceeding in accordance with the regulations governing contested cases as set forth
in sections 193-9-1 through 19a-9-29 of the Regulations of Connecticut State Agencies.
Any order issued by a town, city, borough, or district director of health shall include a notice of
the right to appeal which shall indicate the name and telephone number of the commissioner or
the commissioner's designee, and shall be accompanied by copies of sections 19a-9-8 and 19a9-14 of the Regulations of Connecticut State Agencies.

Page A20 of A20

